VALIDATION OF OPERATIONAL SAVINGS
AT THE WESTERN DISTRIBUTION CENTER
      FEDERAL SUPPLY SERVICE
 REPORT NUMBER A060176/F/9/V07001
         DECEMBER 4, 2006
                      Field Audit Office, Pacific Rim Region (JA-9)
                        450 Golden Gate Avenue, Room 7-5262
                             San Francisco, CA 94102-3434

Date:               December 4, 2006

Reply to
Attn of:            Audit Manager, San Francisco Field Audit Office (JA-9)

Subject:            Validation of Operational Savings at the
                    Western Distribution Center, Federal Supply Service
                    Report Number A060176/F/9/V07001

To:                 James A. Williams
                    Commissioner, Federal Acquisition Service (Q)


The San Francisco Field Audit Office conducted a review of validating operational costs
and subsequently, any savings that may have resulted from relocating the Western
Distribution Center (WDC). Further, we determined whether similar modernization
would be justified at the Eastern Distribution Center (EDC) based on our validation. The
audit was included in the Office of Inspector General’s fiscal year 2006 Annual Audit
Plan.

BACKGROUND

The Office of Global Supply manages the logistics program by which it receives, stores,
and distributes items to federal customers. Its two depots, the EDC in Burlington,
New Jersey; and the WDC in French Camp, California anchor distribution operations.
During 2003, FSS relocated most of the WDC operations from Rough & Ready Island,
Stockton, California to a newer more technologically advanced facility located at nearby
Sharpe Depot. The final relocation of personnel and equipment took place in
January 2004.

The Federal Supply Service’s (FSS) Office of Global Supply prepared the Sharpe
Benefits Study (Study) that identified operational savings in five major cost categories:
(1) Labor, (2) Transportation, (3) Information Technology Support, (4) Operating
Supplies, and (5) Rent. Although the Study addressed other operational activities, the
primary focus of the review was in the validation of costs and resultant savings for the
five categories. Our review also assessed whether the validated costs and savings at
the WDC were appropriate for the EDC since FSS Global Supply is considering similar
modernizations for this distribution facility.


                                           1
OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our review were to determine whether operational costs and savings
that were identified by the Study were valid; and were these validated savings justified
for similar modernizations at the EDC?

To accomplish our objectives, we analyzed operational activities at the WDC comparing
amounts for fiscal year (FY) 2002 to FY 2005 using various source documents such as
financial reports, invoices, and payroll records. Costs reported for FY 2002 were
selected as the base year because they reflected current operational activity for the
WDC prior to the relocation1. Whereas, FY 2005 was used as the comparison year
since it represented one full year of operational activity at the new modernized facility.
In order to provide a fair comparison and to reflect FY 2002 costs, FY 2005 amounts
were adjusted by eliminating inflationary costs such as pay scale changes and fuel
surcharges. As a result, comparing the adjusted amounts to the baseline year figures
more accurately represented the effect of the WDC relocation and modernization.

In addition, we held discussions with General Service Administration (GSA) officials at
the WDC, various GSA personnel located in San Francisco and Sacramento, California,
and FSS management in Arlington, Virginia.

The audit was conducted in accordance with generally accepted government auditing
standards.


RESULTS OF REVIEW

After reviewing cost savings for the five major categories included in the Study, we
concluded that differences between the Study’s amounts and those determined in our
review were not considered significant. However, other factors might have an effect
before proceeding on similar modernization attempts at the EDC. Therefore, validated
savings alone cannot justify modernization. We further observed adverse changes
relating to labor that should be of concern to FSS management. Although costs for
transportation were decreasing as a result of the modernization, FSS management
should be cognizant of these costs given declining sales at the WDC. Results of our
review were presented to management officials of the Office of Global Supply on
September 20, 2006 and are included in Appendix A.




1
 A significant organizational change at FSS Global Supply occurred between late summer and autumn of
2001 (i.e., FY 2002) that resulted in the reduction from eight facilities (four depots and four forward supply
points) to just two existing distribution centers.
                                                      2
Factors Impacting EDC Modernization

Based on the assessment of the Study, certain cost categories as well as other matters
may have an impact on justifying the modernization of the EDC:

       Labor - Anticipated workforce efficiencies as a result of modernizing the WDC
       have not materialized since the facility has experienced decreasing sales
       revenues and increasing labor costs since the relocation. Consequently, facility
       modernization does not always guarantee reduced labor costs.

       Transportation – There were significant operational differences between the two
       depots that effect transportation savings.

       Rent – Savings in this particular cost category were site-specific to the WDC and
       therefore, were not applicable for modernizing the EDC.

       Other Matters –The Study addressed other possible benefits of modernizing the
       WDC that were not validated in our review. Specifically, the Study described
       intangible and cost avoidance factors related to work-in-process2, shipping, and
       distribution operations. Although the Study reported the WDC was reaping these
       intangible benefits as a result of the modernization, the EDC may not realize
       those benefits due to operational differences.


CONCLUSION

Operational costs and savings for the WDC should not be used exclusively as a basis to
justify similar modernizations at the EDC due to operational differences between the two
facilities. FSS must consider all measurable costs and intangible factors that may have
an impact on modernizing the EDC.         In addition, considering that the modernized
system at Sharpe was designed to decrease labor requirements, FSS needs to
determine ways to reduce the costs of labor particularly with the slowing volume of
sales. Furthermore, FSS needs to evaluate means for reducing transportation costs
especially in light of declining sales.




2
 Work-in-process is measured based on the total number of days to complete a customer’s order from
receipt to delivery.
                                                  3
GSA Office of Inspector General
Validation of Operational Savings at
the Western Distribution Center
Federal Supply Service
Assignment Number A060176/F/9/V07001



               Appendix A


                   A-1
       Validation of Operational Savings at the
             Western Distribution Center
                    Introduction

This is the fourth review addressing the Western
Distribution Center’s (WDC) relocation to a renovated
and upgraded facility at an existing Defense Logistics
Agency (DLA) warehouse at Sharpe Depot, French
Camp, CA.

The objectives of the review were to determine
whether operational savings at the WDC, were valid;
and justified for similar modernizations at the Eastern
Distribution Center (EDC).


                          A-2
            Validation of Operational Savings at the
                  Western Distribution Center
                           Background

 In 2002, FSS made a decision to relocate and modernize the
  WDC, based largely on a feasibility study. The report
  estimated a cost of $20.6 million with a projected annual
  savings of approximately $9.7 million.
 During 2003, the WDC moved from Rough & Ready Island,
  Stockton, CA, to the newer more technologically advanced
  facility at the Sharpe Depot, French Camp, CA.

 The final relocation of personnel and equipment to the new
  facility was accomplished in January 2004.
 FSS is considering similar modernizations for the EDC,
  currently located in Burlington, New Jersey.

                               A-3
          Validation of Operational Savings at the
                Western Distribution Center

         Audit Objectives, Scope & Methodology


Audit Objectives:
The objectives of the review were to determine whether
operational savings at the WDC, were valid; and justified
for similar modernizations at the EDC.
Scope:
We reviewed operational activity amounts for the WDC,
using FY2002 as the base year compared to FY2005
activity at the new facility.



                           A-4
              Validation of Operational Savings at the
                    Western Distribution Center

            Audit Objectives, Scope & Methodology
Methodology:
The Office of Global Supply prepared a report: Sharpe
Benefits Study (the Study), that identified operational
savings in various categories including:
 • Labor
 • Transportation
 • IT Support
 • Operating Supplies
 • Rent
Note: The Study also addressed activity in other areas, however, the primary focus
and dollars reviewed were in the above categories.


                                       A-5
              Validation of Operational Savings at the
                    Western Distribution Center

            Audit Objectives, Scope & Methodology
Methodology:
Our field work included the following:
 Held discussions with GSA officials at:
    9   Western Distribution Center (French Camp, CA),
    9   FSS Headquarters (Crystal City, VA),
    9   GSA Offices (San Francisco and Sacramento, CA)

 Reviewed and analyzed FSS Reports, invoices, payroll documentation,
   correspondence, and related data sources.

Management Controls:
   The examination of management controls was limited to those necessary
   to achieve the specific objectives and scope of the audit.


                                    A-6
          Background: Sharpe Benefits Study

 The basis for our review and validation of operational savings
  at the WDC was an FSS Global Supply comprehensive
  report, Sharpe Benefits Study, which addressed:
      The history of the WDC’s Stockton location, as well as the
       decision to modernize and relocate to the Sharpe facility;
       and,

   •   Measurable savings/costs, by operational activity, including
       methodology and explanation of adjustments to FY2005
       numbers.

 The table on the following page presents FY2005 actual
  costs for the operational cost categories under review.

                                A-7
        Validation of Operational Savings at the
              Western Distribution Center
                      Background


                WDC Operational Costs
                     FY2005

Labor                            $14,304,429       42.2%
Transportation                     14,403,263      42.4%
IT Support                             1,646,788    4.9%
Operating Supplies                     2,770,199    8.2%
Rent                                    784,964     2.3%
           Total                $33,909,643         100%
Source: WDC Financial Reports




                                 A-8
     WDC Operational Savings - Methodology

            Baseline year and Comparison year
 FY2002 was selected as the baseline year because it
  clearly reflected current operational activity with two
  existing distribution centers (EDC and WDC). Changes in
  the previous organizational structure of FSS Supply (with
  four depots and four forward supply points) occurred
  during the summer of FY2001 and into FY2002. This
  change had a measurable impact on transportation, labor
  and other operational costs.
 FY2005 was chosen as the comparison period because it
  represented one full year of normal operational activity at
  the Sharpe Depot facility.



                             A-9
    WDC Operational Savings - Methodology

           Baseline year and Comparison year
                          (continued)


 FY2005 amounts were adjusted by removing inflationary
  costs such as pay scale changes and fuel surcharges,
  in order to reflect costs in FY2002. As a result,
  comparing the adjusted amount to the baseline year
  more accurately represents the effect of the relocation
  and modernization.

 Therefore, our validation focused on comparing FY2002
  with FY2005 (adjusted) amounts.



                           A-10
        Validation of Operational Savings at the
              Western Distribution Center

  Results in Brief:
9 As a result of validating the study’s costs &
  savings for the 5 major categories, differences
  were not considered significant.
9 However, these validated savings alone do not
  justify modernization.
9 Independent of our audit objectives, we noted
  operational cost measures indicating labor
  efficiencies have not been realized.


                          A-11
                 Summary Comparison of Cost/Savings
                                  (a)                  (b)                 (b-a)           (c)                      (b-a)-c
                                FY2002               FY2005           Cost/(Savings) Cost/(Savings)              Cost/(Savings)
                                                   (adjusted)
     Cost Category             Per Study           Per Study             Per Study             Per OIG               Difference     Notes
     Labor                  $10,867,662          $ 11,653,594         $    785,932 $     238,221                $        547,711      1
     Transportation         $18,676,139          $ 12,793,016         $ (5,883,123) $ (5,275,367)               $       (607,756)     2
     IT Support             $ 332,886            $ 1,646,788          $ 1,313,902 $ 1,331,429                   $        (17,527)     3
     Operating Supplies     $ 1,938,915          $ 2,590,410          $    651,495 $     765,749                $       (114,254)     4
     Rent                   $ 5,508,467          $    784,964         $ (4,723,503) $ (3,869,314)               $       (854,189)     5
                     Total $37,324,069           $ 29,468,772         $ (7,855,297) $ (6,809,282)
Notes:                    * Analysis of the IT Support and Rent amounts did not consider inflationary adjustments.

1.       The difference of $547,711 was attributed to the following: understated amounts of $366,659
         (overtime costs); $187,445 (new contract labor agreements); $53,071 (unsupported costs);
         and an overstated amount of $59,464 (annual pay scale and locality pay increases).
2.       The difference of $607,756 was attributed to the following overstated amounts for FY2005:
         $103,484 (freight inflation adjustment) and $504,272 (fuel surcharge adjustment).
3.       The difference of $17,527 was attributed to: $20,458 (understating FY2002 support staff pay)
         and $37,985 (overstating FY2005 support staff pay).
4.       The difference of $114,254 was attributed to overstatement of FY2005 inflationary
         adjustment.
5.       The difference of $854,189 was attributed to the Study incorrectly using FY2001 rent amount
         in the FY2002-2005 rent savings calculation.

                                                                   A-12
            Sharpe Benefits Study – Labor
                      (a)           (b)              (b-a)             (c)            (b-a)-c
                    FY2002         FY2005
                                 (adjusted)      Cost/(Savings)   Cost/(Savings)   Cost/(Savings)
                   Per Study     Per Study        Per Study          Per OIG         Difference
   Labor          $10,867,662   $11,653,594         $ 785,932         $238,221       $547,711



 Labor costs, which included GSA employee salaries & overtime, and
   contract labor, were based on actual and adjusted costs. FY2002
   total labor costs were compared to FY2005 (adjusted) labor costs to
   determine variance.
 In order to adjust FY2005 labor costs, economic factors that included
   cost-of-living and locality pay increases for GSA employees, and
   wage rate growth in labor contracts, were excluded.
 The differences described in Note 1, page 12 were not considered
   significant.


                                          A-13
         WDC Operational Savings– Labor Analysis
  Labor Productivity Measures   FY2002     FY2005        Labor Productivity
                                           (adjusted)     In addition to labor
 Lines per Man-Year/1000        7.061       4.624          costs, productivity
 Labor cost per line            $5.55       $8.85        measures were also
 Total Labor Cost/Revenue        4.3%           5.5%    addressed in the Study.
                         Comparing Labor Productivity Measures:
                          FY2002 (Stockton) to FY2005 (Sharpe)
9 Lines processed per man-year dropped by 35%.

9 Labor costs per line increased over 59%, after adjustments.

9 Revenues dropped by 22%.

9 Labor cost per revenue, adjusted for inflation, increased by 28%.

Conclusion - Anticipated workforce efficiencies have not
materialized; productivity has fallen while costs have increased.

                                         A-14
     Sharpe Benefits Study – Transportation Costs
                     (a)            (b)             (b-a)             (c)            (b-a)-c
                   FY2002         FY2005
                                (adjusted)      Cost/(Savings)   Cost/(Savings)   Cost/(Savings)
                 Per Study     Per Study         Per Study         Per OIG         Difference
Transportation   $18,676,139   $12,793,016       ($5,883,123)     ($5,275,367)     ($607,756)

 Transportation savings were measured using cost per ton for each year
identified, multiplied by the actual tons for FY2005, to calculate a total
transportation cost.

 FY2002 transportation costs were adjusted for quantity to compare to
FY2005 levels.

 In order to adjust FY2005 transportation costs, fuel surcharges and freight
rate increases were excluded.

 Differences as noted on Note 2, Page 12, were not considered significant.

                                         A-15
   WDC Operational Savings – Transportation

Transportation Cost Analysis
                                         Transportation Cost as a
Shipping Cost per Ton:                Percent of Revenue (annual data)
FY2002        FY2005                  10.0%
                                       8.0%
              (adjusted)                                           EDC
                                       6.0%
                                      4.0%
$608.22        $416.63                2.0%
                                                                   WDC

                                      0.0%
                                              2002      2005
The WDC reduced the shipping cost              Fiscal Years
per ton from FY2002 to FY2005. The
data also indicates a drop in the
transportation costs as a percentage          2002      2005    % decrease
of revenue, a key measurement ratio
                                     EDC      6.3%      3.4%       46%
for the WDC. Meanwhile, this ratio
has seen a much steeper drop, and    WDC      8.1%      6.8%       16%
to a lower level, at the EDC.



                               A-16
    WDC Operational Savings – Transportation

Transportation Cost Analysis

                   Comparing Transportation Cost:
                 FY2002 (Stockton) to FY2005 (Sharpe)
     9 Shipping cost per ton has decreased; and
     9 Total transportation cost to revenue ratio has decreased;


The 31% drop in shipping cost per ton and the decrease in transportation
cost per revenues from 8.1% to 6.4% may be, in part, a result of
warehouse management system efficiencies. However, FSS
Management observed that the 8.1% amount from FY2002 is somewhat
high as a result of the FSS Supply organization consolidation; as a result,
the modernized system is not the sole factor for the ratio improvement.


                                  A-17
     Operational Differences between EDC and WDC
      We noted 3 factors related to transportation savings that should be
      considered in justifying the modernization of the EDC:
1.    Transportation Costs - At the EDC, transportation costs, historically, have
      represented a smaller proportion of operating costs and revenues, compared to
      the WDC.

2.    Export Operations – At the WDC, export operations, which were more labor
      intensive, did not make full use of the automation and accounted for only 8% of
      lines shipped. Whereas, EDC exports totaled 32% of lines shipped. (FY2005)

3.    Automated Facility - Prior to modernization, the WDC distribution system was
      generally non-automated. In contrast, current EDC operations were semi-
      automated, which included conveyors and a partial warehouse management
      system.

      Conclusion: Based on operational differences, savings from
      fully automating the EDC may not reflect those realized by
      modernizing and relocating the WDC.



                                         A-18
      Sharpe Benefits Study – IT Support Costs

                 (a)          (b)              (b-a)             (c)            (b-a)-c

               FY2002       FY2005         Cost/(Savings)   Cost/(Savings)   Cost/(Savings)
              Per Study    Per Study         Per Study         Per OIG        Difference
 IT Support     $332,886   $1,646,788        $1,313,902       $1,331,429       ($17,527)

 IT Support costs included labor for IT personnel (Region 9 and
Central Office IT staff) and equipment-related purchases for WDC.

 The increase in IT Support costs was largely attributed to Central
Office IT support. Specifically, these costs consisted of contract labor
for programming, development, and maintenance of the new
warehouse management system.

 The differences as described in note 3, page 12 were not
considered significant.

                                    A-19
  Sharpe Benefits Study – Operating Supplies Costs

                  (a)           (b)             (b-a)             (c)            (b-a)-c
                FY2002        FY2005
                            (adjusted)      Cost/(Savings)   Cost/(Savings)   Cost/(Savings)
               Per Study    Per Study         Per Study         Per OIG         Difference
  Operating
  Supplies     $1,938,915   $2,590,410          $651,495         $765,749      ($114,254)

 Operating supplies consisted of telephone services, office supplies
and equipment rental, and general operating supplies.

 Global Supply used an estimated inflation rate to adjust the FY2005
amounts; whereas, we used the Consumer Price Index as a more
reliable factor. The differences were not considered significant.

 The net increase, adjusted for inflation, is largely due to additional
purchases related to the warehouse operations, including printer
cartridges, shipping labels, and packaging materials.

                                     A-20
             Sharpe Benefits Study – Rent
                 (a)          (b)                 (b-a)             (c)            (b-a)-c
               FY2002       FY2005            Cost/(Savings)   Cost/(Savings)   Cost/(Savings)
              Per Study    Per Study            Per Study         Per OIG         Difference

   Rent       $5,508,467    $784,964           ($4,723,503)     ($3,869,314)     ($854,189)


 At the Stockton Depot, FSS paid an annual rent of $5.5
million in FY 2002. For the new facility at Sharpe, FSS is only
required to pay DLA for user fees on utilities and maintenance
costs.


 Conclusion: The rent savings, although valid, are specific to
Sharpe and are, therefore, not applicable for modernizing the
EDC.

                                       A-21
      Sharpe Benefits Study - Other Matters

The Study also included areas we did not address:
9 Discussion of cost avoidance by moving to the more modern
  facility;
9 Identification of intangible savings, including facility-related
  benefits and warehouse management system improvements at
  Sharpe;
9 Opportunities for improvements, including shortcomings in the
  new system/facility requiring attention in the future;
9 Burlington suggestions or “lessons learned”, to enhance the
  efforts to modernize and automate the EDC, based on experiences
  during the WDC modernization.

We did not analyze or validate these areas because they were not
measurable or quantifiable. However, we acknowledge the benefits
of their discussion for possible improvements at the WDC and
future modernization plans for the EDC.

                               A-22
         Sharpe Benefits Study - Other Matters
Specifically, the Study covered additional issues that were not validated in
our review, but may be useful in any current or future efforts at the EDC.
Work In Process (WIP): Typical end of the day WIP at Stockton was estimated to
be 2 to 4 days. Efforts were recently made, and priorities and goals were emphasized, to
reduce the WIP at the new facility. A recent measure at Sharpe indicated the WIP had
been drastically reduced from 4 days to 2 hours. However, the increased labor effort to
maintain the minimal WIP may not be worth the minimal additional benefits to customer
service (Global Supply officials indicated that 4 hours is generally an ideal WIP balance to
keep an even flow of workload). Efforts are being made to determine the ideal balance
between WIP and customer service.
Transportation: According to the Study, process changes in distribution measured
during February-March 2006 have resulted in reduced shipping cost per ton by 19%.
Intangible benefits: Process efficiencies derived from the warehouse management
system (WMS) that included cartonization, similar-order processing, and data-tracking
information have improved operations at the WDC according to the Study.
Other Measures: According to the Study, discrepancies reported to the National
Customer Service Center have dropped substantially (75%) between FY2002 and
FY2005, indicating improvements in quality service. Similarly, the Study reported that the
number and dollar-value of inventory adjustments resulting from inventory counts had
been reduced significantly since the modernization.


                                          A-23
     WDC Operational Savings – Conclusion

Audit Objective:
1. Were the WDC operational savings, as identified by FSS
   Global Supply’s study, valid?

Conclusion:
 Our validation of the study’s costs & savings of the 5 major
   categories resulted in minor differences;
   Of significance, we identified operational cost measures
    indicating labor efficiencies have not been realized.
    Specifically, WDC has experienced decreasing sales
    revenues and increasing labor costs since the relocation.



                             A-24
   WDC Operational Savings – Conclusion

Audit Objective:
2. Were validated savings justified for similar modernizations
   at the EDC?

Conclusion:
Validated savings alone do not justify modernization.
Furthermore, savings categories that include rent and
transportation at the WDC may not apply to the EDC.
  9   Rent savings were specific only to the WDC and, therefore,
      were not applicable to the EDC.
  9   Transportation savings at the EDC may not be realized due to
      operational differences (cost, export operations, and current
      level of automation).


                              A-25
WDC Operational Savings - Recommendations
 We recommend that the Commissioner of the Federal Acquisition
 Service direct the Assistant Commissioner for Global Supply to:
1.   Conduct a Business Model evaluation and/or a cost/benefit analysis of
     the EDC operating requirements that include, but not limited to,
     assessments of operational trends (sales revenue, labor & transportation
     costs) and cost efficiencies (labor productivity) rather than relying on the
     Sharpe Benefit Study as a basis for modernizing the EDC.

 In addition, considering that the modernized system at Sharpe was designed
 to decrease labor requirements, FSS needs to determine ways to reduce the
 costs of labor particularly with the slowing volume of sales. Furthermore,
 FSS needs to evaluate means for controlling transportation costs especially
 in light of declining sales.
2.   Address the issue of increasing labor costs relative to declining sales at
     the WDC. FSS needs to determine ways to decrease the labor costs
     and/or contain the additional labor requirements on a modernized
     system designed to reduce labor costs.
3.   Continue recent efforts to control transportation costs at Sharpe, in light
     of the declining revenues.

                                     A-26
B-1
B-2
B-3
                     VALIDATION OF OPERATIONAL SAVINGS
                     AT THE WESTERN DISTRIBUTION CENTER
                           FEDERAL SUPPLY SERVICE
                      REPORT NUMBER A060176/F/9/V07001


                                REPORT DISTRIBUTION

                                                                      COPIES

Commissioner, Federal Acquisition Service (Q)                            3

Assistant Commissioner, Office of General Supplies and Service (FL)      1

Director, Logistics Operations Center,
Office of General Supplies and Service (FLO)                             1

Chief, Audit Follow-up and Evaluation Branch (BECA)                      1

Assistant Inspector General for Auditing (JA)                            2

Assistant Inspector General for Investigations (JI)                      1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)         1

Director, Policy Plans & Operations Staff (JAO)                          1

Regional Inspector General for Audits (JA-3)                             1

Special Agent-in-Charge for Investigations (JI-W)                        1

Special Agent-in-Charge for Investigations (JI-9)                        1

Regional Administrator (3A)                                              1

Regional Administrator (9A)                                              1




                                           C-1
